     Department of Homeland Security

     ��������������������������



   FEMA Should Recover $46.2 Million of Improper 

  Contracting Costs from Federal Funds Awarded to 

 the Administrators of the Tulane Educational Fund, 

               New Orleans, Louisiana 





DD-13-11                                  August 2013

                                OFFICE Of INSPF.CTOR GENERAL
                                    Department o r Homeland Security




                                             AUG 1 ; 2013


    MEMORANDUM FOR:                 George A. Robinson
                                    Region~1 Adm ini strator, Region VI
                                    Federal                     emenl Ailene¥.

    FROM;
                                    Assista
                                    Offic;e of Emergency Manilgement Oversi&ht

SUBJ ECT:                           FEMA Should Reco ver $46_2 MIIIi(H1 of Improper
                                    Contracting Cos ts From Federal Funds Awarded to the
                                    Administrators of the Tulane Educational Fund, New
                                    OrleaM, Louisiana
                                    FEMA Disaster Number 1603-DR-LA
                                    Audit Report 00-13-11

We aud ,ted PubliCAssistance {PAl Blant fu nd$ awarded to the Administrators 0 1 t he
Tulane Educational Fund, New Orleans, louisiana (T II lane ) (Public Assistance
Id ent ificati on Num be r OOO-UlVHC-OO). Our audit objective wa ~ to determine whether
Tulane a,counted for a nd expended Federal Emergency Management Agency (FEMA)
gran t fund s according to Federal regulations and FEMA guideline s.

The Governor's Office 01 Homel aml Secu rity an d Emergency Preparedness (GOH SEP), iI
fEMAgrantee, awarded Tulane the gross amount of $291 _9 million for damages
resulting l rom Hurricane Katrina, wtllch occurr ed on August 29, 2005. As shown in
ta ble 1, Tulane's in~ uranc;e proceeds as of June 2011 and a Small Business
Administration (SBA) loa n reduced the gro ss amOl.l nllo a net aWird of $ 153.1 mil lio n.'




!The amounl of Il\Wr~nce ,e(i u(:'lion. m~ change btocauu, ~t t he Ii"", Df Ou' .udil, FEMA hold nol
completed It, an.~,1s of Tul~...,' . in_"',"nc~ proceeds,
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                            Table 1. Gross and Net Award Amounts

                        Gross Award          SBA Loan            Insurance         Net Award
                          Amount             Reduction          Reductions          Amount
     All Projects      $291,896,596        ($1,500,000)      ($137,309,505) $153,087,091

The award provided 100 percent funding for 497 projects—309 large and 188 small
projects.2 The audit covered the period August 29, 2005, through April 3, 2013, the
cutoff date of our audit. Because of the size of the award and number of projects, we
have divided this audit into phases. During the first phase, we reviewed FEMA’s
allocation of Tulane’s insurance proceeds and issued a Management Advisory Report
recommending FEMA complete its analysis of insurance, because Tulane had received
insurance proceeds that FEMA had not allocated to Tulane’s projects. 3 In this second
phase, we reviewed the methodology Tulane used to award $230.1 million in disaster-
related contracts. We are planning a third phase to review the support and eligibility of
specific costs Tulane has claimed.

We conducted this performance audit between June 2011 and April 2013 pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objective. We conducted this audit by applying the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.

We interviewed FEMA and Tulane officials, reviewed contracting documents, and
performed other procedures considered necessary to accomplish our objective. We did
not assess the adequacy of Tulane’s internal controls applicable to its grant activities
because it was not necessary to accomplish our audit objective. We did, however, gain
an understanding of Tulane’s methods of accounting for disaster-related costs and its
procurement policies and procedures.




2
 Federal regulations in effect at the time of the disaster set the large project threshold at $55,500.
3
 DD-12-10, Insurance Allocations To FEMA Public Assistance Grant Funds Awarded to the Administrators
of the Tulane Educational Fund, New Orleans, Louisiana, dated April 19, 2012.



www.oig.dhs.gov                                    2                                        DD-13-11
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


                                               BACKGROUND


Tulane is a private university located in New Orleans, Louisiana. It offers
undergraduate, graduate, and professional degrees in various disciplines, and has
developed significant research programs. Tulane’s primary campuses are located in the
New Orleans area and it is the city’s largest employer. Hurricane Katrina caused
significant damages to its facilities and, as a result, Tulane suspended much of its New
Orleans-based activities and programs for the 2005 fall semester. Tulane reopened its
main campus in January 2006.




Flooding of an intramural field and students’ residences on Tulane’s main campus. Photo provided by Tulane
University.

During the 2005 fall semester, Tulane arranged for students to enroll at other
universities throughout the country and relocated most of its medical teaching
programs to Houston. Tulane placed great emphasis on reopening its main campus for
the 2006 spring semester because it was concerned that its future would be imperiled if
it could not quickly restore operations. Approximately 93 percent of its undergraduate
students returned for the 2006 spring semester on the main campus. Tulane reopened
its medical-related campuses in the summer of 2006.



www.oig.dhs.gov                                         3                                            DD-13-11
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security




After Hurricane Katrina, Tulane established a Disaster Resilience Leadership Academy
that offers masters- and PhD-level programs in disaster leadership. Additionally, Tulane
has partnered with FEMA to share knowledge and research about disasters, provide
reduced tuition for FEMA employees for disaster-related classes, and offer FEMA
internships to Tulane students. Tulane also participates with five other universities in a
FEMA Disaster Resistant University pilot program with the purpose of defining and
addressing issues to improve the ability of university campuses to withstand significant
disaster threats.


                                    RESULTS OF AUDIT

Tulane did not always follow Federal procurement standards in awarding $230.1 million
in contracts it used for disaster work. As a result, we question $46.2 million as ineligible
contract costs consisting of the following amounts:

   •	 $35.0 million in excessive and prohibited markups on costs. Tulane awarded
      $205.4 million to its primary contractor using a noncompetitive, prohibited cost-
      plus-percentage-of-cost contract. FEMA approved this contract despite being
      fully aware of its provisions for markups on costs. We usually question all costs
      related to noncompetitive contracts; however, in this case, we did not because
      exigent circumstances existed at the time of the award.
   •	 $5.5 million in unapplied credits. FEMA needs to ensure that Tulane does not
      include in its claim a $3.5 million discount and a $2.0 million donation that its
      primary contractor provided.
   •	 $5.7 million for four noncompetitive contracts Tulane awarded after exigent
      circumstances ended.

In addition, Tulane did not perform a cost or price analysis on its $205.4 million primary
contract; did not include required provisions in eight contracts; and did not take
sufficient steps to ensure the use of small businesses, minority firms, and women’s
business enterprises. As shown in table 2, Tulane violated five procurement standards
included in Federal regulations at 2 CFR Part 215.




www.oig.dhs.gov                              4	                                   DD-13-11
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                                     Table 2. Tulane Contracts 


     Contract                                                                Violations of Procurement
      Award        Questioned     Contract Award                            Standards 1–5 Listed Below:
     Amount          Costs 4           Date            Scope of Work         1      2      3    4    5
    $205,367,469   $40,498,493       09/16/05       Restoration Contract     X             X    X    X
       1,308,570             0       09/16/05       Mold Cleanup                                     X
       2,064,532             0       10/25/05       Elevator Repairs                            X    X
         158,764             0       11/02/05       Dormitory                                   X    X
                                                    Temporary
       1,994,469              0      11/16/05       Classrooms                                   X     X
                                                    Temporary
       3,252,776             0       11/21/05       Residences                                   X     X
       2,432,462             0       06/08/06       HVAC                                               X
         956,224       956,224       07/05/06       Pianos                          X            X     X
       1,593,222     1,593,222       06/25/07       Fence Repairs                   X                  X
       4,188,277             0       12/23/07       Library Processing                           X     X
       3,698,764             0       12/23/07       Library Cataloging                           X     X
         756,110       756,110       01/29/08       Auditorium                      X                  X
       2,371,478     2,371,478       09/18/09       Alumni House                    X                  X
    $230,143,117   $46,175,527

Federal regulations at 2 CFR Part 215, in part, require that subgrantees—


      1.	 Do not use the cost-plus-a-percentage-of-cost method of contracting, which is
          prohibited. (2 CFR Part 215.44(c))
      2.	 Perform procurement transactions in a manner to provide, to the maximum
          extent practical, open and free competition. (2 CFR Part 215.43)
      3.	 Prepare and document some form of cost or price analysis in connection with
          every procurement action. (2 CFR Part 215.45)
      4.	 Include required provisions in contracts and subcontracts, such as those relating
          to termination, compliance with Equal Employment Opportunity and labor laws,
          and prohibition of “kickbacks.” (2 CFR Part 215.48 and Appendix A)
      5.	 Make positive efforts to utilize small businesses, minority-owned firms, and
          women’s business enterprises, whenever possible. (2 CFR Part 215.44(b))



4
  The $40,498,493 questioned from the primary contractor’s billings for restoration includes $35,003,493
in markups on costs (finding A) plus $5,495,000 for unapplied credits (finding B). The remaining
questioned costs are for the $5,677,034 Tulane awarded for four contracts after exigent circumstances
ended (finding C).




www.oig.dhs.gov                                     5	                                       DD-13-11
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Finding A: $35.0 Million of Excessive and Prohibited Markups on Contract Billings and
Costs

Tulane awarded $205.4 million to its primary contractor using a noncompetitive, cost-
plus-percentage-of-cost contract that included $35.0 million in excessive and prohibited
markups on costs. FEMA approved this contract despite being fully aware of its
provisions for markups on costs. As shown in table 3, the contractor added an average
of 19.3 percent markups to hourly time-and-materials billings for its own employees.
These hourly rates were already “fully burdened,” which means that they included profit
and overhead. The primary contractor also added a 21 percent markup on pass-through
costs for subcontractors and vendors that already included markups. Therefore, we
question $35,003,493 as excessive, ineligible markups on costs.

                Table 3. Markups on the Primary Contractor’s Billings


                       Amounts                                  Amounts        % of
                     Billed Before     Markup        Mark      Billed After    Total
     Description       Markups         Amounts       up %       Markups       Billings
 Time & Materials
 Billings             $ 45,124,626    $ 8,703,232    19.3%    $ 53,827,858      26.2%
 Subcontractors &
 Vendors               125,239,350      26,300,261   21.0%     151,539,611      73.8%

 Totals              $170,363,976     $35,003,493    20.5% $205,367,469        100.0%

Federal regulations prohibit cost-plus-percentage-of-cost contracts because they
provide no incentive for contractors to control costs—the more contractors charge, the
more profit they make. Tulane awarded the $205.4 million contract in September 2005
for emergency and permanent recovery work. The contract represented about
70 percent of the total award for Tulane’s 497 projects, or $205.4 million of the total
$291.9 million award. The primary contractor performed most of the work between
September 2005 and June 2006.

We did not fault Tulane for awarding this contract without competition because exigent
circumstances existed at the time. Generally, we consider circumstances to be exigent
when lives or property are at stake, or in this case, when a city or community needs to
reopen its schools. As stated in the background section of this report, approximately
93 percent of Tulane’s undergraduate students returned for the 2006 spring semester




www.oig.dhs.gov                            6                                  DD-13-11
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


on the main campus and Tulane reopened its medical-related campuses in July 2006.
Therefore, we consider the exigent period to have ended in June 2006.

FEMA Approval of Tulane’s Cost-Plus-Percentage-of-Cost Contract With Primary
Contractor

Tulane awarded the cost-plus-percentage-of-cost contract on September 16, 2005.
FEMA Louisiana Recovery Office (LRO) staff said that they notified FEMA Headquarters
of Tulane’s cost-plus-percentage-of-cost contract with its primary contractor in
November 2005. FEMA Headquarters subsequently approved the contract in February
2006 based on LRO staff representations that the—

      •	 Costs were reasonable; 5
      •	 Scope was controlled/limited by the January 2006 completion date of the main
         campus; and
      •	 Work under the cost-plus-percentage-of-cost contract was substantially
         complete.

Further, FEMA Headquarters conditioned its approval on the requirement that both the
LRO and Tulane take immediate steps to reduce/control the costs of the remaining
work. FEMA Headquarters also directly notified Tulane representatives of this
requirement.

In January 2007, FEMA added standard language to Tulane’s project worksheets that
documented FEMA’s approval of the cost-plus-percentage-of-cost contract. The
following excerpt is from one of Tulane’s project worksheets that contains this language.

        REFER TO THE FILES OF THE OFFICE OF GENERAL COUNSEL FOR A COPY OF THE
        AGREEMENT BETWEEN [PRIMARY CONTRACTOR] AND THE ADMINISTRATORS OF
        THE TULANE EDUCATIONAL FUND, FOR DEMOLITION, RESTORATION, REMEDIATION,
        AND/OR RECONSTRUCTION SERVICES NECESSITATED BY THE STORM EVENT. THE
        AGREEMENT IS A COST PLUS A PERCENTAGE OF COST CONTRACT AND INCLUDES A
        PROPOSED RATE AND MATERIAL SCHEDULE. FEMA COST ESTIMATING SPECIALISTS
        HAVE ANALYZED THE SCHEDULE AND HAVE DETERMINED THAT CONSTRUCTION
        WORK THAT UTILIZES THE UNIT RATES PROPOSED BY [PRIMARY CONTRACTOR] WILL
        RESULT IN FAIR AND REASONABLE CONSTRUCTION COSTS. [PRIMARY
        CONTRACTOR’S] RATES WERE COMPARED WITH SEVERAL ACCEPTED COST
        ESTIMATING SOURCES…. FEMA COST ESTIMATING SPECIALISTS FURTHER STATE
        THAT THE DISASTER-SPECIFIC CIRCUMSTANCES SURROUNDING THIS AGREEMENT

5
 FEMA’s practice has been to allow contract costs it considers reasonable even if an award does not
comply with Federal procurement regulations.



www.oig.dhs.gov                                    7	                                        DD-13-11
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       PRECLUDE [PRIMARY CONTRACTOR] FROM OBTAINING UNDUE PROFIT OR
       CHARGING UNREASONABLE ADIMINISTRATIVE COSTS BY SUCH COMMON TRADE
       PRACTICES AS EXPANDING THE SCOPE OF NECESSARY WORK OR EXTENDING THE
       TIME ALLOWED TO DO NECESSARAY WORK, THUS MAKING THE TERMS AND
       CONDITIONS OF THE AGREEMENT ACCEPTABLE IN THIS INSTANCE.

We do not agree with FEMA’s conclusion that Tulane’s primary contractor charged
reasonable rates/costs. Our main concerns about the primary contractor’s billings are—

   •	 FEMA’s basis for cost reasonableness was unsupported and incorrect;
   •	 Markups on time-and-materials rates represented excessive profit because the
      time-and-materials rates already included overhead and profit;
   •	 Markups on subcontract/vendor costs represented duplicate costs and excessive
      profit because the primary contractor charged hourly rates for managing
      subcontracts/vendors;
   •	 Tulane did not realize that the primary contractor’s hourly rates already included
      overhead and profit and already included costs for managing subcontractors and
      vendors; and
   •	 Tulane’s cost control activities were inadequate.

FEMA’s Basis for Cost Reasonableness Was Unsupported and Incorrect

FEMA Headquarters based its approval of the contract on the LRO’s assertion that the
costs were reasonable, but neither FEMA Headquarters nor the LRO maintained
documentation of the rationale they used to make this determination. Further, FEMA’s
basis for the determination was incorrect. FEMA asserted that the contract costs were
reasonable because (1) the unit rates were reasonable based on cost estimating
formats, (2) the January 2006 deadline to complete work on the main campus served to
reduce costs because the time limit did not allow the contractor to increase costs, and
(3) the cost-plus-percentage-of-cost work was substantially complete at that time.

   (1) Unit Rates – FEMA’s statement that the rates were reasonable applied only to
       the time-and-materials rates stated in the contract. LRO’s assertion of
       reasonableness did not address the subcontractor/vendor costs; the 19.3
       percent (average) markups added to time-and-materials rates, which already
       included overhead and profit; or the 21 percent markups on
       subcontractor/vendor costs.

   (2) January 2006 Deadline and Substantial Uncompleted Work – Contrary to FEMA’s
       assertion that a tight deadline served to limit costs, deadlines can increase the



www.oig.dhs.gov                            8	                                 DD-13-11
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       potential for incurring excessive costs. The contractor would have less
       opportunity to plan its work and be more inclined to incur excessive costs by
       hiring extra staff, working additional overtime, and purchasing extra materials to
       ensure meeting the deadline.

   (3) Completed Work – The primary contractor’s work was not substantially
       complete in January 2006. In fact, as of February 2006, the primary contractor
       had billed only $138.0 million of the $205.4 million ultimately billed. Further, the
       primary contractor continued to work on Tulane projects under the cost-plus­
       percentage-of-cost contract until 2008, even though FEMA Headquarters
       understood the cost-plus-percentage-of-cost contract terms would be
       discontinued or substantially modified to reduce costs. Therefore, FEMA should
       have notified Tulane that it would not fund any costs under the cost-plus­
       percentage-of-cost contract after February 2006.

Markups on Time-and-Materials Rates Represented Excessive Profit

The markups on the primary contractor’s time-and-materials rates were not only
prohibited, they also represented excessive profit because the time-and-materials rates
already included sufficient overhead and profit. The contract included hourly rates
based on the primary contractor’s National Price List for all the types of work. However,
these were not the rates that workers received. These rates were fully burdened hourly
rates that included the employee’s actual pay, labor burden (taxes and fringe benefits
such as insurance, retirement, and vacation pay), overhead, and profit. In June 2012,
we asked Tulane to provide us with the composition of the primary contractor’s national
labor rates. However, Tulane informed us that the primary contractor had not provided
a breakdown of these rates to them; as of the date of this report, Tulane had still not
provided this information.

Examples of the primary contractor’s rates listed in the contract were $26.50 per hour
for laborers, $36.00 per hour for drywall/painters, $41.00 per hour for supervisors, and
$42.00 per hour for carpenters. Based on average wages for construction, we estimate
that these rates were about double what employees received, which leaves half (or 100
percent markup to the employees’ wages) for labor burden, overhead, and profit. We
estimate that the primary contractor hourly rates included a 50 percent markup to the
wage rate for labor burden and 50 percent markup to the wage rate for overhead and
profit. We consider a markup of 50 percent of the wage rate for overhead and profit to
be generous, especially considering that the contractor’s risk was very low—Tulane
reimbursed for all costs incurred. Therefore, the primary contractor’s additional
21 percent markup on the contracted rates represents unreasonable, excessive profits.


www.oig.dhs.gov                             9                                   DD-13-11
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security




Markups on Subcontractor/Vendor Costs Represented Duplicate Costs and Excessive
Profit

The 21 percent markup that the primary contractor added to subcontractor/vendor
costs represented duplicate costs and excessive profit because the primary contractor
had already charged Tulane for managing subcontractors/vendors through its hourly
rates. The primary contractor’s scope of work included construction work, but its main
function was to manage and oversee subcontractors and vendors. The contract listed
hourly rates for different types of work that included project managers, supervisors,
administrative staff, and project auditors. We found no evidence that the primary
contractor incurred any significant additional costs to manage and oversee the
subcontractors and vendors that were not covered by the billing rates. Therefore, the
markups on subcontractors and vendors represented duplicate costs and excessive
profit. In addition, the primary contractor (1) allowed two general contractors to add
additional markups on subcontractor costs, resulting in a 46.4 percent total markup for
managing the subcontractors and vendors; and (2) allowed some subcontractors to
apply excessive markups.

   (1) The primary contractor allowed two general contractors to add an additional
       21 percent markup on the subcontractors they used. The primary contractor
       basically served as a project manager for these two general contractors. The
       general contractors marked up their subcontract cost to the primary contractor
       by 21 percent, and the primary contractor added its 21 percent markup to the
       general contractors’ billings. Thus, Tulane paid markups of 46.4 percent
       (1.21 times 1.21 equals 1.46) to manage the subcontractors who were
       performing the actual work.

   (2) The primary contractor allowed some of the subcontractors to apply extremely
       excessive markups. For example, one subcontractor marked up costs for fuel
       and freight by 30 percent and 15 percent, respectively, and the primary
       contractor then marked up the same costs an additional 21 percent. The
       resulting cumulative markups for fuel and freight were 57.3 percent and
       39.2 percent (1.30 times 1.21 equals 1.57; and 1.15 times 1.21 equals 1.39),
       respectively.

Generally, fees on construction work are tied to the risk associated with performing the
work and collecting the amounts billed. However, in this case, the primary contractor
incurred no risk because—




www.oig.dhs.gov                            10                                 DD-13-11
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security



    •	 All costs were reimbursable;
    •	 There was little to no performance risk because Tulane and the primary
       contractor jointly determined the scope of work on the cost-plus-percentage-of­
       cost contract; and
    •	 There was little to no collection risk because payments were secured by
       insurance proceeds and Tulane contractual guarantees, and FEMA funded most
       of the costs that insurance did not cover.

Tulane Did Not Realize That the Primary Contractor’s Hourly Rates Already Included
Overhead and Profit and Already Included Costs for Managing Subcontractors and
Vendors

Early in our audit, we explained to Tulane officials that the 21 percent markup on the
contractor’s hourly billings and subcontractor and vendor costs represented excessive
profits, as discussed in this report. Tulane officials did not agree, stating that the
primary contractor’s hourly rates represented its actual cost and did not include indirect
costs or profit. They said the primary contractor had told them that the hourly rates in
the contract represented the contractor’s National Rate and Material Schedule (or
standard commercial rates). In fact, a primary contractor’s representative provided a
declaration to Tulane in March 2012 stating that the rates were unburdened.

Because we thought the rates included overhead and profit, we requested that Tulane
provide us the composition of the primary contractor’s rates (the cost). Tulane stated
that they requested this from the primary contractor, but did not receive it. In August
2012, Tulane informed us that they had learned that the rates were burdened (not cost)
and that the primary contractor had recently explained that the rates included
necessary administrative costs.

Tulane’s Cost Control Activities Were Inadequate

Tulane overcame a number of major obstacles and difficulties to complete a large
amount of work in a short period of time to ensure that its main campus would open in
January 2006. To do so, it developed a contract progress monitoring system that was
instrumental in ensuring the contractor met the January 2006 deadline. However,
Tulane’s focus was timely construction, rather than cost control. Although Tulane and
the primary contractor took steps to reduce costs, there was no reliable administration
system to control costs (i.e., to ensure that the contractor purchased only necessary
materials and paid for only necessary labor).




www.oig.dhs.gov                            11	                                  DD-13-11
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


FEMA Headquarters conditioned its approval of the cost-plus-percentage-of-cost
contract in February 2006 with the understanding that FEMA and Tulane were to control
any future or remaining contract costs. The approving official indicated his concerns to
LRO and Tulane officials regarding the contractor’s incentive to inflate the costs of the
cost-plus-percentage-of-cost contract to increase profits.

The FEMA approving official informed Tulane that LRO staff would work with Tulane to
resolve the issue of controlling future contract costs. He also stated in September 2006
that he had not agreed to the contractor performing work after February 2006 on a
cost-plus basis. However, neither FEMA nor Tulane took any significant actions to
control the contractor’s costs or to change the contract terms after February 2006
pursuant to FEMA Headquarters’ approval conditions. In fact, as noted above, the
contractor continued to perform work under the cost-plus-percentage-of-cost until
2008 and billed Tulane an additional $67.0 million after February 2006.

Tulane monitored the primary contractor’s construction progress. However, there is
little evidence that Tulane staff or independent representatives knowledgeable in
construction costs monitored the reasonableness or checked the validity of the costs
that the primary contractor billed to Tulane.

Tulane contracted with an outside accounting firm to verify that the primary contractor
had support for its invoice amounts and that billings were not duplicated. However,
according to the accounting firm, “All documentation was accepted as presented” and
there were only a few instances in which Tulane or an independent party reviewed
these invoices for work performed before the accounting firm processed them. The
primary contractor and its subcontractors billed a substantial portion of the project
costs on a cost-plus-percentage-of-cost or time-and-materials basis, which require
supporting documents, such as timesheets and invoices that an independent third party
(that would not benefit from higher costs) should have reviewed before processing.
Further, the accounting firm did not verify whether the primary contractor actually paid
subcontractors’ submitted costs.

Additionally, Tulane did not have an administrative system to verify that the amounts
billed represented actual, necessary, and supported costs. Tulane could not
demonstrate that it had an independent, effective method to ensure that contractors
actually received and used the billed materials for campus disaster repairs or to ensure
that charged labor costs were for actual hours worked on disaster-related repairs.

Instead, Tulane officials said that the companies billed hours based on sign-in sheets
that the companies’ employees completed. Generally, neither Tulane nor an


www.oig.dhs.gov                            12                                   DD-13-11
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


independent monitoring contractor performed on-site procedures to verify or audit the
hours charged before document review and processing by an outside accounting firm.6
Also, the outside accounting firm requested but was not provided information regarding
the primary contractor’s payroll records related to time charged to Tulane.

Further, subcontractor invoices generally did not contain marks, such as initials, to
indicate that anyone reviewed and approved them. In addition, Tulane submitted
invoices from its primary contractor that were not supported by invoices from vendors
or subcontractors.7 For example, Tulane did not provide invoices for $12.2 million from
the primary contractor for work that a subcontractor performed on one project. Not
having a consistent methodology of independent reviews to ensure that costs billed
were supported and represented actual disaster activity increased the likelihood for
fraud and abuse.

Most of the cost control deficiencies noted above probably could have been addressed
if—
    •	 Tulane had hired an independent project management firm to oversee the costs;
    •	 The primary contractor had provided the independent accounting firm access to
       its Tulane-related labor records; and
    •	 The independent accounting firm had performed certain other normal accounts
       payable review procedures such as reviewing for invoice approvals.

However, Tulane did not take these actions. Instead, Tulane’s primary project
management focus was to open the main campus by January 2006, with cost control
being a lesser concern. Further, because Tulane compensated its primary contractor
and most of the subcontractors on a cost-plus-percentage-of-cost basis, they had no
incentive to control costs in achieving the January 2006 opening.

After learning of the cost-plus-percentage-of-cost contract in November 2005, FEMA
should have immediately notified Tulane that these contract terms are prohibited by
Federal regulations. Further, FEMA should have informed Tulane that unless it quickly
entered into an allowable contractual arrangement, such as a cost-plus contract with a
fixed fee, it would not receive additional Federal disaster funding. We disagree with
FEMA that the costs were reasonable.


6
  Tulane officials said that insurance company auditors did some testing and verification of labor hours
and presented their findings to Tulane, but we were not able to evaluate the scope of this work because
Tulane officials said they do not have access to the documentation.
7
  As stated above, during a third audit phase, we plan to review the support and eligibility of specific costs
Tulane has claimed.



www.oig.dhs.gov                                      13	                                          DD-13-11
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security




When grantees award cost-plus-percentage-of-cost contracts and do not adequately
monitor the costs incurred, FEMA cannot accurately determine reasonable costs. Under
a cost-plus-percentage-of-cost contract, the contractor has no incentive to control costs.
The fact that FEMA Headquarters approved a prohibited cost-plus-percentage-of-cost
contract based on incorrect assertions is troubling in and of itself. Also troubling is the
fact that the LRO and Tulane took no actions to control costs after FEMA Headquarters
instructed them to do so as a condition of its approval of the cost-plus-percentage-of­
cost contract. Clearly, FEMA Headquarters should not have approved any part of a cost-
plus-percentage-of-cost contract.

Tulane stated that during the immediate aftermath of Hurricane Katrina, Tulane’s
operations, including its procurement functions, were severely disrupted and most of its
personnel were not in New Orleans. Tulane contacted other universities and relied on
their advice and the advice of their insurance companies to obtain a contractor to assist
the university in opening the campus quickly.

Finding B: $5.5 Million in Unapplied Donations and Credits

In developing its claims, Tulane did not account for a $3.5 million discount and a
$2.0 million donation—both received from its primary contractor. As a result, Tulane
would have claimed $5.5 million more than it paid its primary contractor. According to
2 CFR Part 220, Appendix A, Section C.1 and C.5, to be allowable, costs must be net of
applicable credits.

Tulane’s primary contractor billed Tulane $205.4 million in cost-plus-percentage-of-cost
charges under the terms of its contract. However, pursuant to a settlement agreement
with the contractor, Tulane paid the contractor $5.5 million less than the amounts
billed, or $199.9 million. This difference is comprised of a $2,000,000 contribution from
the contractor to Tulane and a $3,495,000 settlement discount. Neither of these credits
was reflected on any of the primary contractor’s 21 invoices.

The Tulane staff who worked with FEMA to develop the values of projects said they had
focused only on the amounts to be billed for each project and had developed a database
of all the invoices the primary contractor submitted, which were exclusive of the
settlement agreement.

When we discussed this matter with Tulane staff, they immediately agreed that Tulane
should not claim and be reimbursed for more than the $199.9 million that Tulane
actually paid the primary contractor. Tulane officials also said they were confident that


www.oig.dhs.gov                             14                                  DD-13-11
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


the credits would have been identified during the finalization of its cost submissions and
Tulane would have then reduced its overall FEMA claim by the amount of these credits.

Finding C: Noncompetitive Contracts Awarded After Exigent Circumstances Ended

Tulane awarded four noncompetitive contracts totaling $5,677,034 after exigent
circumstances no longer existed. We consider the exigency to have ended in June 2006
just before Tulane opened its Medical School campus to students. Federal regulations
at 2 CFR Part 215.43 require all procurement transactions be conducted in a manner to
provide, to the maximum extent practical, open and free competition, which means that
all responsible sources are allowed to compete for contracts. However, rather than
publicly advertising these four contracts, Tulane invited only preselected contractors to
bid on them.

Because methods of publicly advertising were available before the contract award
dates, Tulane should have used open and free competition under non-exigent
circumstances to allow all responsible sources to compete as Federal procurement
regulations require. Open and free competition also helps to discourage and prevent
favoritism, collusion, fraud, waste, and abuse. Additionally, without public solicitation
there is no assurance that Tulane (1) allowed all potential responsible sources to
compete for federally funded projects, (2) awarded contracts based on the best prices
available, or (3) awarded contracts to the most qualified companies. Further, without
public notice, all responsible small businesses, minority-owned firms, and women’s
business enterprises cannot compete for contract awards (see finding D).

One of the noncompetitive awards Tulane made after the exigent period was to replace
21 damaged pianos. Eighteen of the pianos were between 49 and 86 years old and two
others were 27 and 36 years old. The FEMA PA Guide (FEMA 322, October 1999, p.57)
states that used equipment should be replaced with used items of the same age,
capacity, and condition. Replacement of used items with new items is permitted when
a used item is not available within a reasonable time or distance.

Tulane submitted, and FEMA approved, a project to buy 21 new (instead of used)
replacement pianos on the basis that the pianos would be purchased in time to support
the January 2006 opening of the campus. FEMA approved the project because time was
a factor. However, Tulane did not purchase the pianos until July 2006. The delay
provided Tulane with ample time to evaluate other sourcing options for new and used
pianos.




www.oig.dhs.gov                             15                                   DD-13-11
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Further, Tulane purchased all of the 21 new pianos from the sole locally authorized
distributor of a well known piano manufacturer and negotiated pricing directly with the
manufacturer. This purchase also covered the purchase of four pianos from different
manufacturers. As a result, Tulane did not compete or source the award by attempting
to purchase used pianos or sourcing from different manufacturers. Therefore, we
question this sole-source, noncompetitive contract because Tulane awarded it after
exigent circumstances ended, and Tulane could have obtained pianos from other
sources at competitive prices.

Because Tulane awarded four contracts without open and free competition after the
exigent period ended, we question the $5,677,034 as ineligible contract costs.

Finding D: Other Violations of Federal Procurement Standards

Tulane did not always comply with other procurement standards in awarding the
13 contracts totaling $230.1 million of disaster-related work (see table 2). First, Tulane
did not perform a cost or price analysis on its $205,367,469 primary contract. Federal
regulations at 2 CFR Part 215.45 require subgrantees to perform a cost or price analysis
on all procurements. Therefore, this contract had an increased likelihood of
unreasonable contract costs and misinterpretations or errors in pricing relative to
scopes of work.

Second, Tulane did not include all required provisions in eight of its contracts totaling
$221,681,275. Federal regulations at 2 CFR Part 215.48 and Appendix A set forth the
required provisions for contracts and subcontracts, such as Equal Employment
Opportunity compliance, compliance with labor laws, and prohibition of “kickbacks.”
These provisions document the rights and responsibilities of the parties and minimize
the risk of misinterpretations and disputes. Tulane representatives stated that, because
of the exigent circumstances, they were not able to use their standard federally funded
contract templates, but told us that they have since returned to their established
practice of including the standard provisions in their federally funded contracts.

Third, Tulane did not take sufficient steps to ensure the use of small businesses,
minority firms, and women’s business enterprises whenever possible for any of its
awards. Tulane officials said that before Hurricane Katrina, it had an active and formal
program to ensure that it used such firms; however, to reopen its campuses in a timely
manner, it did not use this program to make disaster awards during the exigent period.
Even though Tulane did not take sufficient steps, it did award three contracts totaling
$8.6 million to these types of entities. Tulane representatives said that after Hurricane




www.oig.dhs.gov                             16                                  DD-13-11
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Katrina they re-activated their program and will ensure that they use small businesses,
minority-owned firms, and women’s business enterprises whenever possible.

We agree that exigent circumstances may preclude the use of open and free
competition and the steps necessary to use these types of businesses whenever
possible. However, for the four contracts awarded after the exigent period ended in
June 2006, Tulane should have complied with Federal regulations requiring subgrantees
to take all necessary affirmative steps to ensure that they use these businesses when
possible (2 CFR 215.44(b)). We questioned the costs related to these four contracts in
finding C.

Additionally, Tulane and the primary contractor awarded three contracts or
subcontracts to vendors who had previously or later made contributions to Tulane, one
of the most significant of which was a $2.0 million donation from the primary
contractor. 8 Also, Tulane awarded several other disaster contracts to entities with
relationships with Tulane, including previously used contractors, alumni, and members
of various Tulane boards. Tulane representatives said that it made these awards in a
manner consistent with its internal policies, and were not aware of the open and free
competition requirements.

Certain of these awards could potentially represent real or apparent organizational
conflicts of interest under 2 CFR Part 215.43, which states that recipients shall be alert
to organizational conflicts of interest as well as noncompetitive practices among
contractors that may restrict or eliminate competition or otherwise restrain trade.
Further, 2 CFR Part 215.42 states, in part:

        No employee, officer, or agent shall participate in the selection,
        award, or administration of a contract supported by Federal funds
        if a real or apparent conflict of interest would be involved. Such a
        conflict would arise when the employee, officer, or agent, any
        member of his or her immediate family, his or her partner, or an
        organization which employs or is about to employ any of the
        parties indicated herein, has a financial or other interest in the
        firm selected for an award. The officers, employees, and agents
        of the recipient shall neither solicit nor accept gratuities, favors,


8
 As of March 2012, the primary contractor, a subcontractor and the owner of another subcontractor
were members of the Paul Tulane Society. Tulane awards membership in this society to individuals and
organizations that have made gifts of $1 million or more to the university.



www.oig.dhs.gov                                  17                                        DD-13-11
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


       or anything of monetary value from contractors, or parties to

       subagreements. 


Tulane officials said they do not have any evidence to indicate that there were any
conflicts of interest associated with its disaster awards.


                                  RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region VI:

Recommendation #1: Disallow $35,003,493 as ineligible for prohibited and excessive
markups on contract costs, unless FEMA grants an exemption for all or part of the costs
as provided for in 2 CFR 215.4 and Section 705(c) of the Robert T. Stafford Disaster Relief
and Emergency Assistance Act, as amended (finding A).

Recommendation #2: Ensure Tulane is not reimbursed the $5,495,000 of ineligible
costs for unapplied credits to contract costs. By avoiding these costs, FEMA can put
these funds to better use (finding B).

Recommendation #3: Disallow $5,677,034 as ineligible for four noncompetitive
contracts, unless FEMA grants an exemption for all or part of the costs as provided for in
2 CFR 215.4 and Section 705(c) of the Robert T. Stafford Disaster Relief and Emergency
Assistance Act, as amended (finding C).

Recommendation #4: Ensure that GOHSEP instructs Tulane on Federal procurement
standards listed at 2 CFR Part 215 (findings A, C, and D).




www.oig.dhs.gov                             18                                  DD-13-11
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Tulane officials during our audit and included
their comments in this report, as appropriate. We also provided a draft report in
advance to FEMA, GOHSEP, and Tulane officials and discussed it at exit conferences held
with FEMA on September 9, 2012, and February 20, 2013, and with FEMA, GOHSEP, and
Tulane officials on March 28, 2013. FEMA officials generally agreed with our findings,
but will need to further review some of the details. GOHSEP representatives disagreed
with finding B and did not offer any other comments. Tulane disagreed with all the
report findings and recommendations and said that they will discuss finding A with
FEMA.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until we receive and
evaluate your response, we will consider the recommendations to be open and
unresolved.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Tonda Hadley, Director; Paige Hamrick, Audit
Manager; William Haney, Auditor-in-Charge; Rebecca Hetzler, Senior Auditor; and
Tim Scott, Senior Program Analyst.

Please call me with any questions at (202) 254-4100 or your staff may contact
Tonda Hadley, Director, Central Regional Office, at (214) 436-5200.




www.oig.dhs.gov                            19                                   DD-13-11
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

                                                                            Appendix


                                Report Distribution List

Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Acting Chief Privacy Officer

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Chief Procurement Officer
Interim Director, FEMA Louisiana Recovery Office
Audit Liaison, FEMA Louisiana Recovery Office
Audit Liaison, FEMA Region VI
Audit Liaison, FEMA (Job Code G-12-067)

State

Director, Louisiana Governor’s Office of Homeland Security and Emergency
Preparedness
Audit Liaison, Louisiana Governor’s Office of Homeland Security and Emergency
Preparedness
Louisiana Legislative Auditor

Subgrantee

Senior Vice President for Operations and Chief Financial Officer




www.oig.dhs.gov                            20                              DD-13-11
                                                                          Appendix
                                                                        (continued)

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform
House Committee on Transportation and Infrastructure




www.oig.dhs.gov                        21                                DD-13-11
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
